No. 20-1088

In The
Supreme Court of the United States
DAVID AND AMY CARSON, AS PARENTS AND NEXT
FRIENDS OF O.C., ET AL.,
Petitioners,

v.
A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF
EDUCATION,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

AMICUS BRIEF OF THE AMERICAN
CENTER FOR LAW AND JUSTICE
IN SUPPORT OF PETITIONERS
JAY ALAN SEKULOW
Counsel of Record
STUART J. ROTH
JORDAN SEKULOW
COLBY M. MAY
WALTER M. WEBER
LAURA B. HERNANDEZ
AMERICAN CENTER FOR
LAW & JUSTICE
201 Maryland Ave., N.E.
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Counsel for Amicus Curiae

i
TABLE OF CONTENTS

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

It Is Unconstitutional Invidiously to
Discriminate in a Secular Benefits Program
Against an Otherwise Eligible Entity Solely
Because of Its Religious Identity or
Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Ii. Locke v. Davey Provides No Valid Basis for a
Contrary Result . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. The Locke Decision Is Itself Questionable . 6
B. The Decision in Locke Was Unnecessary . . 9
C. This Court Should Definitively Inter the
Locke Decision . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
Cases

Page

City of Cleburne v. Cleburne Living Ctr.,
473 U.S. 432 (1985) . . . . . . . . . . . . . . . . . . . . . . . 4
Clark v. Jeter, 486 U.S. 456 (1988) . . . . . . . . . . . . . 4
Carey v. Brown, 447 U.S. 455 (1980). . . . . . . . . . . . 4
Espinoza v. Montana Dep’t of Revenue, 2018
MT 306, 393 Mont. 446, 435 P.3d 603 (2018) . . 11
Espinoza v. Montana Department of
Revenue, 140 S. Ct. 2246 (2020). . . . . . . . 1, passim
Everson v. Board of Educ., 330 U.S. 1 (1947) . . . . . 3
Good News Club v. Milford Cent. Sch.,
533 U.S. 98 (2001) . . . . . . . . . . . . . . . . . . . . . . . . 3
Lamb’s Chapel v. Center Moriches Union
Free Sch. Dist., 508 U.S. 384 (1993) . . . . . . . . . . 3
Locke v. Davey, 540 U.S. 712 (2004) . . . . . . 1, passim
Lynch v. Donnelly, 465 U.S. 668 (1984) . . . . . . . . . 2
McDaniel v. Paty, 435 U.S. 618 (1978) . . . . . . . . . . 3
Mueller v. Allen, 463 U.S. 388 (1983) . . . . . . . . . . . 2
Pierce v. Society of Sisters, 268 U.S. 510 (1925) . . . 4

iii
Pleasant Grove City v. Summum,
555 U.S. 460 (2009) . . . . . . . . . . . . . . . . . . . . . . . 1
R.A.V. v. City of St. Paul, 505 U.S. 377 (1992) . . . . 4
Rosenberger v. Rectors & Visitors of Univ.
of Va., 515 U.S. 819 (1995). . . . . . . . . . . . . . . . . . 3
Trinity Lutheran Church of Columbia, Inc.
v. Pauley, 788 F.3d 779 (8th.Cir. 2015) . . . . . . . 11
Trinity Lutheran Church v. Comer,
137 S. Ct. 2012 (2017) . . . . . . . . . . . . . . 3, 5, 6, 11
United States Dep’t of Agriculture v. Moreno,
413 U.S. 528 (1973) . . . . . . . . . . . . . . . . . . . . . . . 4
Walz v. Tax Comm’n of NY,
397 U.S. 664 (1970) . . . . . . . . . . . . . . . . . . . . . . . 2

Constitutional Provisions and Statutes
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . . . 3, 4
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . 4
Wash. Admin. Code § 250-80-010 . . . . . . . . . . . . . . 9

Other Authorities
Joshua Davey, “The Real Losers of Locke v.
Davey,” Icthus (Apr. 1, 2004) . . . . . . . . . . . . . . . 10

1
INTEREST OF AMICUS1
The American Center for Law and Justice (ACLJ) is
an organization dedicated to the defense of
constitutional liberties secured by law. ACLJ attorneys
often appear before this Court as counsel for a party,
e.g., Locke v. Davey, 540 U.S. 712 (2004); Pleasant
Grove City v. Summum, 555 U.S. 460 (2009), or
amicus, e.g., Espinoza v. Montana Department of
Revenue, 140 S. Ct. 2246 (2020). The ACLJ is
dedicated, inter alia, to religious liberty and freedom
of speech.
SUMMARY OF ARGUMENT
In the distribution of religion-neutral benefits (here,
tuition assistance), the government may not disfavor
otherwise eligible private entities solely on the basis of
their religious identity or activities. The lower court’s
rejection of that norm cannot stand. Importantly, this
Court’s decision in Locke v. Davey, 540 U.S. 712 (2004),
does not require a contrary result. The fact that lower
courts continue to invoke Locke for the opposite
proposition demonstrates the need for this Court’s
review.

1

Counsel for the parties in this case received timely notice of
the intent to file this brief. Petitioners have filed a blanket
consent to amicus briefs. Respondent emailed consent to the filing
of this brief. No counsel for any party authored this brief in whole
or in part. No person or entity aside from the ACLJ, its members,
or its counsel made a monetary contribution intended to fund the
preparation or submission of this brief.

2
ARGUMENT
Governments often employ incentives (grants,
credits, and deductions) to pursue desired social goods,
such as the fostering of charitable works and the
education of children. That the incentivized activities
may involve religious entities or pursuit of religious
goals is not a constitutional problem. Walz v. Tax
Comm’n of NY, 397 U.S. 664 (1970) (tax exemption
included properties dedicated to religious purposes);
Mueller v. Allen, 463 U.S. 388 (1983) (deduction for
education expenses included expenses at private
religious schools). What the government may not do is
discriminatorily exclude otherwise qualified, eligible
entities solely because of their religious identity or
activities. This norm follows from much of this Court’s
jurisprudence. The First Circuit nevertheless declared
that otherwise neutral educational assistance is
impermissible solely when funds go to schools with
religious missions. This Court should grant review and
reverse.
I. It Is Unconstitutional Invidiously to
Discriminate in a Secular Benefits Program
against an Otherwise Eligible Entity Solely
Because of Its Religious Identity or Activities.
Express governmental discrimination, in a secular
benefits program, against an otherwise qualified
entity, solely because of that entity’s religious identity
or activities, is generally unconstitutional. Yet the
court below approved precisely such discrimination.
The Constitution “forbids hostility” toward “all
religions,” Lynch v. Donnelly, 465 U.S. 668, 673 (1984).

3
“State power is no more to be used so as to handicap
religions than it is to favor them.” Everson v. Board of
Educ., 330 U.S. 1, 18 (1947). The Establishment
Clause “commands that . . . [a state] cannot exclude
individual Catholics, Lutherans, Mohammedans,
Baptists, Jews, Methodists, Non-believers,
Presbyterians, or the members of any other faith,
because of their faith, or lack of it, from receiving the
benefits of public welfare legislation.” Id. at 16.
This Court has therefore held that it violates the
First Amendment (specifically, the Free Exercise
Clause) to target clergy for special political disabilities.
McDaniel v. Paty, 435 U.S. 618 (1978). This Court has
likewise held, in the context of a speech forum, that it
violates the First Amendment to exclude an entity
because of its religious message, e.g., Lamb’s Chapel v.
Center Moriches Union Free Sch. Dist., 508 U.S. 384
(1993); Good News Club v. Milford Cent. Sch., 533 U.S.
98 (2001), including when a funding program is at
issue, Rosenberger v. Rectors & Visitors of Univ. of Va.,
515 U.S. 819 (1995). Similarly, the exclusion of an
otherwise eligible recipient from a government grant
program, solely because that entity is religious in
nature, violates the Free Exercise Clause. Trinity
Lutheran Church v. Comer, 137 S. Ct. 2012 (2017).
Most recently, in Espinoza v. Montana Department of
Revenue, 140 S. Ct. 2246 (2020), this Court held that
a ban on aid only to “sectarian” schools “turns
expressly on religious status and not religious use,” id.
at 2256, and thus violates the nondiscrimination norm
articulated in Trinity Lutheran and “the decades of
precedents on which it relied,” Espinoza, 140 S. Ct. at
2260. See id. at 2256-57, 2260-61.

4
This Court has also held that the Equal Protection
Clause commands that “all persons similarly situated
should be treated alike.” City of Cleburne v. Cleburne
Living Ctr., 473 U.S. 432, 439 (1985), and that
discrimination triggered by the exercise of a
fundamental right – here, the religious educational
choices of parents – triggers strict scrutiny under the
Equal Protection Clause. Clark v. Jeter, 486 U.S. 456,
461 (1988) (classifications affecting fundamental rights
trigger strict scrutiny). A fortiori, restrictions that rest
on no more than “a bare desire to harm” – or exclude
– a particular group are impermissible, Cleburne, 473
U.S. at 446-47 (citing United States Dep’t of
Agriculture v. Moreno, 413 U.S. 528, 534 (1973)).
Thus, a government’s posting of a “no religious
choices or entities allowed” sign, whether literal or
figurative, runs afoul of both the Equal Protection
Clause and the religion and speech2 clauses of the
First Amendment. See also Pierce v. Society of Sisters,
268 U.S. 510 (1925) (upholding parental right to
choose religious schools for their children).
It follows that the selective exclusion challenged
here cannot stand. The bar on tuition assistance
applies expressly to so-called “sectarian” schools, Pet.
at 5-6. And as Espinoza held, the state’s appeal to
concerns about the use to which any funds could be put
cannot sanitize this express discrimination.
“Status-based discrimination remains status based
even if one of its goals or effects is preventing religious

2

The standards governing discrimination against religious
speech are the same under the Free Speech and the Equal
Protection Clauses. E.g., Carey v. Brown, 447 U.S. 455, 463
(1980); R.A.V. v. City of St. Paul, 505 U.S. 377, 384 n.4 (1992).

5
organizations from putting aid to religious uses.” 140
S. Ct. at 2256.
A contrary ruling would authorize gratuitous
hostility against those who choose religious entities for
donations, education, services, etc. A state or federal
government could disallow deductions for charitable
contributions only to religious schools. Use of public
parks could be free except for religious school events.
Tours of museums and state capitols could be free for
all student groups except those from religious schools.
A government transportation agency could allow free
(and thus subsidized) use of express lanes by HOV
vehicles except for buses carrying children to or from
religious schools. Such a rule, in a land settled by
believers seeking religious freedom, would be
ahistorical, ironic, and “odious,” Trinity Lutheran, 137
S. Ct. at 2025.
The First Circuit’s ruling in this case allowed
precisely what the Constitution forbids. Accordingly,
this Court should grant review and reverse.
II. Locke v. Davey Provides No Valid Basis for a
Contrary Result.
The court below invoked this Court’s decision in
Locke v. Davey, 540 U.S. 712 (2004), as supporting the
supposed constitutionality of a “no choice of religious
schools” rule. Pet. App. 47a-50a. But Locke provides no
such support for the decision below, as Trinity
Lutheran and Espinoza amply demonstrate. In any
event, Locke at best provides very unsteady footing for
any rule that would justify targeted religious
discrimination.

6
Locke worked no revolution in constitutional
jurisprudence. Locke did not purport to overturn any
of this Court’s precedents. Nor did it challenge the
notion that discrimination against churches as such
would violate the Constitution. See 540 U.S. at 724
(distinguishing government action “evincing hostility
toward religion”). To the contrary, Locke expressly
distinguished a situation like the one here, where
someone or something had “to choose between their
religious beliefs and receiving a government benefit.”
Id. at 720-21.
Moreover, the Locke decision represents an
especially ill-suited candidate for the construction of a
religion-antagonistic body of law. The fact that Locke
continues to generate erroneous lower court decisions
as in Trinity Lutheran, Espinoza, and the case at bar
shows the need for this Court definitively to repudiate
Locke v. Davey.
A. The Locke Decision Is Itself Questionable.
At issue in Locke was a state’s decision to deny a
scholarship to an incoming college student who had
announced his intention to pursue a major in
devotional theology. 540 U.S. at 716-17. The majority
ruled that this denial reflected a historically based
refusal to use tax money to fund the training and
maintenance of clergy. Id. at 722-23 & n.6. To be sure,
that “historic and substantial” concern, id. at 725, was
real. However, that concern addressed a special
privilege being afforded to clergy, not a common benefit
being denied to clergy. In other words, the state’s boot
in Locke far exceeded the historical footprint.

7
There is a huge difference in kind, not just in degree,
between doling out a special benefit to a select
profession (i.e., clergy) and singularly denying an
otherwise generally available benefit (i.e.,
scholarships, access to public parks, use of public
libraries) only to the select group. The first is a
privilege; the second is blatant discrimination. See id.
at 727 (Scalia, J., dissenting) (“Davey is not asking for
a special benefit to which others are not entitled. . . .
He seeks only equal treatment”).
The Locke majority sought to counter this disconnect
between the state interest and the challenged
restriction by asserting that “training for religious
professions and training for secular professions are not
fungible,” and that “[t]raining someone to lead a
congregation is an essentially religious endeavor.” Id.
at 721. There is some truth to this. But the Locke
majority’s rejoinder proves far too much. The same
could be said of countless other acts: carrying a
religious icon in procession vs. carrying a political
banner; wearing a yarmulke vs. wearing a pullover
cap; growing a long beard for religious reasons vs.
growing a beard for health or style. In each such case,
to single out the religious act for restraint, when the
comparable (and, in secular terms, indistinguishable)
act is not so restrained, is antireligious discrimination.
Morever, the “essential” difference between religious
and secular professions is only visible to the theological
eye. That is, the nonbeliever considers religious acts to
be meaningless rituals of no greater significance than
a Zumba exercise. Only to the eyes of faith is the
religious act “essentially” different. Yet the federal and
state courts are not equipped or even permitted to
render such inherently religious assessments. While

8
disallowing a special assessment for ministers did not
require courts to determine whether Ethical Culture or
Veganism counts as a religion – nobody got tax money
for their profession – a targeted exclusion of what is
“essentially religious” from an otherwise general
benefits program necessarily thrusts courts into the
theological thicket.
The distinction between special privileges and
unique disabilities has growing importance in a time
of expanding government. The more benefits and
services the state undertakes to pay, deliver, control,
or manage, the more important it becomes to resist
discriminatory disqualifications. When the state
undertakes, for example, to foot the bill for healthcare
for the populace or a segment thereof, it would be
plainly discriminatory to disqualify otherwise eligible
ministers, and only ministers, for this tax-funded
benefit.
In short, the rationale of Locke rests upon a basic
category error. Disavowing that error leaves Locke
without its asserted historical foundation. But even if
this Court were to leave Locke entirely intact, Locke
would not control this case involving the wholly
secular benefit of tuition assistance fostering education
and parental choice.
B. The Decision in Locke Was Unnecessary.
Compounding the weakness of the rationale in Locke
is the fact that determination of the opinion’s central
issue was completely unnecessary to resolve the case.
In actuality, the restriction at issue in Locke was so
poorly tailored to the state’s proffered rationale as to
be irrational, having no real effect except to penalize

9
those students who were guileless enough to declare a
major in devotional theology before they were required
to do so.
The scholarship at issue in Locke, the Promise
Scholarship, was available to graduating high school
students for use only in the first two years of college
study. Wash. Admin. Code §§ 250-80-010, 250-80070(1), (4); Locke, 540 U.S. at 715-16. It could be used
for any college “education-related expense, including
room and board,” 540 U.S. at 716. Students who did
not declare any major during their first two years of
college, or who declared a major other than devotional
theology, could receive the Promise Scholarship. Brief
for Respondent at 10 & n.4, Locke v. Davey, No. 021315 (U.S. Sept. 8, 2003) (citing record and noting that
the state relied, in its answer, upon the ability of
students to decline to announce a major and retain
their eligibility for the scholarship). But any student
who declared a major in devotional theology – i.e.,
theology taught from a believing perspective – was
penalized with the loss of scholarship eligibility. 540
U.S. at 716. Thus, the scholarship program in Locke:
• Did not bar the use of tax funds for the study of
devotional theology or ministerial training, even if
the student fully intended to become a minister, so
long as the student did not declare a major, id. at
725 & n.9;
• Did not bar the use of tax funds for the study of
devotional theology or ministerial training as an
elective or even a required course, even if the
student fully intended to become a minister, so long
as the student declared a different major, id.;
• Did not bar the use of tax funds for the study of
theology, even by an actual minister or minister in

10
training, so long as the theology was taught from a
nonbelieving perspective, id. at 716.
However, the restrictions at issue did disqualify a
student with a declared major in devotional theology:
• Even if the student took no more courses in
devotional theology during the covered freshman
and sophomore years than were required of all other
students at the same school, id. at 725 & n.9;
• Even if the student changed his major after
sophomore year or, like Joshua Davey himself,
changed his career plans and did not become clergy
after all. (Davey attended Harvard Law School, see
Joshua Davey, “The Real Losers of Locke v. Davey,”
Icthus (Apr. 1, 2004), available at
http://www.harvardichthus.org/2004/04/the-real-lo
sers-of-locke-v-davey/, and is now a partner at a law
firm, https://www.troutman.com/professionals/
joshua-d-davey.html.
Thus, the restriction at issue in Locke, which
supposedly furthered the goal of avoiding tax funding
“for vocational religious instruction,” 540 U.S. at 725,
was almost completely ineffectual. The state “allowed
scholarships to be used at ‘pervasively religious
schools’ that incorporated religious instruction
throughout their classes,” Espinoza, 140 S. Ct. at 2257.
And as noted above, scholarship recipients, including
clergy in training, could specifically use scholarship
funds for devotional theology study so long as they had
declared a different major or were savvy enough not to
declare any major. Meanwhile, students like Joshua
Davey were penalized for their voluntary declaration
of a major that they were not even required
subsequently to pursue. Ultimately, the haphazardly
tailored restriction in Locke was no more than a

11
penalty for a college freshman’s forthrightness
regarding his expected major, or a punishment for his
mistaken predictions about his future study plans.
The Locke Court should have struck down the
restrictions at issue as an irrational penalty on free
speech (declaring a major) and religious exercise
(declaring one’s intent to pursue a religious vocation)
that fails even minimal scrutiny. That case should
certainly not be rewritten to be the basis for a broad
mandate to treat religious entities as pariahs when
neutral, generally available benefits are at stake.
C. This Court Should Definitively Inter the
Locke Decision.
As in Trinity Lutheran and Espinoza, this Court can
certainly reach the right result here without overruling
Locke. However, it would be better for the law to
repudiate Locke so that it does not continue to
generate errors in the lower courts.
In Trinity Lutheran, the court of appeals relied upon
Locke. Trinity Lutheran Church of Columbia, Inc. v.
Pauley, 788 F.3d 779. 785 (8th Cir. 2015). In Espinoza,
the state supreme court likewise relied upon Locke,
despite this Court’s intervening decision in Trinity
Lutheran. Espinoza v. Montana Dep’t of Revenue, 2018
MT 306, P15, P16, 393 Mont. 446, 459, 435 P.3d 603,
608-09 (2018). And in the present case, the court of
appeals also invoked Locke for support, Pet. App. 47a50a, despite this Court’s rulings in Trinity Lutheran
and Espinoza.
Confining Locke to its facts will not do: Locke, as
explained supra §II(B), is actually irrational on its own
facts. What is needed to restore coherence and

12
integrity to the law is this Court’s recognition that
Locke was a mistake, ill-conceived on both its facts and
its reasoning, a decision that merits express
renunciation. The sooner this Court takes that step,
the better.

13
CONCLUSION
May the federal government confer ROTC
scholarships to attend Yale but not Baylor? May a
government allow tuition assistance to families to fill
a void where no free public school is available, but only
if the students attend a secular school and not a
religiously affiliated school? The answer is a
resounding “no.”
This Court should grant review and reverse the
judgment of the First Circuit.
Respectfully submitted,
Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
Colby M. May
Walter M. Weber
Laura B. Hernandez
American Center for
Law & Justice
201 Maryland Ave., N.E.
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Apr. 7, 2021

